           "\'




THE ACCESS OF              FOREIGN NATIONALS




     TO U. S. CADAVER ORGANS




             .. SERVI('t


                           Richard P. Kusserow
                           INSPECfOR GENERAL
      "1
           'l1f"cl3C1 .
                                       AUGUST 1986
                  Office of the Inspector General

The   ission of the Office of the Inspector General (OIG) is

to promote the efficiency, effectiveness and integrity of

programs in the United States Department of Health and Human

Services (HHS), It does this by developing methods to
detect and prevent fraud , waste and abuse, Created by
statute in 1976 , the Office of the Inspector General " keeps
both the Secretary and the Congress fully and currently

informed about programs or management problems and


country,
recommends corrective actior. . The OIG performs i ts mission
by tonducting audits , investigations and inspections with
approximate:y l , 200 staf f strategically located around the

            Office of A alysis and Inspections

This report is produced by the Office of Analysis and
Inspections (OAI), one of the three major offices within the
OIG, The other two are the Office of Audit and the Office
of Investigations,   OAl conducts inspections which are
typically short-term stud es ' designed to determine program
effectiveness , efficie cy and vulnerability to fraud or
abuse,
                                Thi s Re::ort
Entitled " The Access of Foreign Nationals to U. S. Cadaver
Organs " this report is based on a comprehensive study
 conducted to help the U. S, Department of Eeal th and Human
 Services and other interested parties gain a better
 understanding of the effectiveness , efficiency and equity of
 organ acquisition practices in the             U. S.
 The study was prepared by the Regional Inspector General

 Office of Analysis and Inspections , Boston Region.

 Participating in the proj ect were the following people:

 Boston Reqion                                  Headquarters Office
 Mark R. Yessian ,     Ph. D,                   Betty S. Burrier

   (proj ect Leader)                            Rosalind A. Dailey

. Barry McCoy
 Eleanor Ellis

                        'L. E: ACCESS OF FOREIGN

              NATIO A:S TO U. S. CADAVER ORGANS




                            AUGUST 1986
               TF, :):' . NU!-:EER   Ol-86-00074




Regior. I 

Bosto   assachusettsOffice of Analyis and Inspections
                      Office of the Inspector General
                 Department of Heal th and Human Services
                                           . . .. .. .. .. .. .. .....
. .. . . . . .. ....
                                           y.                                            ..
                                   . . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. ..           ... . .. ... .... .....
                                                                                                    .. .. .. .. .. :
                                                                                                ...................... ...      . . . .. ... ..
                                                                                                                       . . .. .....      ...
                                                                                                                               . .. .. ... .. .. ......
                                                                                                                                                    ... ... ......
                                                                                                                                                                 . ... ..




                                                       TABLE OF CONTENTS


Major Findings.......................................... 1i


Recommendations.                                                                                                                                                    11i
Introduction.



Foreig        ctio a:s Receivi
       Transplants in the U. S. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 2
                Incide:-ce.

                The District of Columbia............................ 5

                Implica.ti.ons.



Exporting Cadaver Kidneys

  to Other Countries.................................... .


                Imp. lica tions.

Recommendations.



Appendix I: Eackgrounc
      and Methodolo

Appendix II: 
                          ethodology for
          edicare Cost Savings                   Estimates.
                       AJOR FINDINGS


An estimated 300 foreign nationals received a cadaver
kidney tra splant in the U.       S. in 1985.
                                        This represents
  2 percent of the cadaver donor transplants per%ormed
in the U. S. in that year.

In a divided vote, the Task Force on Organ
Transplantation , esta lished by the National Organ
Transpl ant Act of 1984 , recently recommended tht no
more than 10 percent of the transplants at any center
should be provided to foreign nationals. This
recommendatio could have the unintended effe
legi timizing a higher incidence of transplants fer
foreign nationals at centers now functioning we

the 10 percent level.
In the District of Columbia , foreign nationals TEcei
abo t 22 percent 0: the 181 cadaver kidney   tranplants
performed in  1985. This is especially striking because
( 1) the incidence of dialysis in the District .. . ,more
than twice the national average and (2) a major

mili tary hospital , which is located in the Dist ct en
which perfo ms transplants for mili taryperso
dependents from all over the world, is no longer
accepting additions to its transplant waiting        list.
The shortage of kid eys is cited as a basis for        ths
policy.
An estiIT,ate:3 200-250 kidneys were exported   :f

  S. to other countries in 1985.
Medicare policy does not require that foreign.     zeceiving
centers pay the full acquisition cost of       expored
kid    eys.
          As a resul t , the Medicare program is,
effect, subsidizing m ch of the acquisition cost Df
kidneys sent to other countries.
There are a number of unfortunate implications
associated with foreign national access to U. S. cadaver
kidneys.  Among them are the following:
       For U. S. residents , the number of kidneys
       available is reduced and the average wait       g t

       increased.
       National organ sharing is discouraged. 

       avail abi 1 i ty of foreign nationals on a wating

       list   rovides a disincentive to sharing.


       Medicare costs are      increased.
       Orga:: de:-. c:: i 0;) is jeopardized.
                 Foreign nationals , on average , are more quickly

                 serviced.

                 Post-tranplant                        care     is         jeopardized.

                 Valuable outcome data is                                   lost.
                                              'RE    COM!1)A TI
     HCFA should undertake ezfars to help ensure     hat
     cadaver kidneys are not offered to foreign na ionals
     unless it has been determned that no . sui table U. S .
     recipient can be zound.
     HCFA should undertake efforts to help ensure


     kidneys a::e not expDrted                                 to other countries unless it
     has been deter. min                             th2t no         sui     table U.   s.   recipient   can
     be :found.
     When kidneys are sent to other             HCFA should                  counies,
     prohibi t Medicare Teimbursem-:t for any of the
     acquisi1:itm t:sts of those kidneys.

These recommenda                  ions          if       arIied out, would allow for an
estimated 508 addi tionel Medicare beneficiaries to receive a
cadaver kidney transp12                              t during 1987.
                                        The Medicare cost
savings generated in that year would be an estiated $37.
ffllion over 5 years­
                ...... .......   .. .. ...."..   ..   ....    .. ." .   ' ..   .. .   " .




                                                  INTRODUCTION

Recent advances in transplantation technology and
immunotherapy are ushering in a new era of multiple organ
and tissue recovery.  Instead of excising just kidneys,
organ recovery teams are increasingly removing hearts, heart
 alves, livers, pancreases , bone marrow , cornea, and other
tissue.  This development adds to the significance,
complexi ty and         visibility of the acquisition process.
also makes it especially important that the more established
kidney acquisition process functions in an          efficient,
effective, and equitable manner , for , in large measure, that
process is serving as a model for organ acquisition
generally.
With respect to cadave kidney transplants , on which this
report will concentrate , the improvements in patient
outcomes have been                strikin;.
                                One year patient survival
rates are now averaging about 93             One year graft                    percent.
survival rates are averaging about 75 percent, with some
centers reporting results well above the 80 percent level.
In the late 1970s , in contrast , cadaver kidney graft
survival rates were averaging only a little over 50 percent.
A major factor behind these gains was the widespread

introduction in Nove ber 1983 of cyclosporine , a powerful

immunosuppressi ve drug. Studies have shown that the use of

cyclosporine has been responsible for increasing one year

graft survival rates by a~ywhere from 8 to 12 percent and

has been particularly valuable for patients who are

highly-sensi tized (i. e. , have a high level of preformed

antibodies) and who have received a kidney with a low

antigen match.


Accordingly, there has been a considerable increase in the

level of kidney transpl ant a tion occurring in the U. S. From
1980 to 1985, the annual incidence increased from 4 697 to
  695 , an increase of 63. 8 percent. During this period
cadaver transpl ants incre osee from 72. 9 percent of the total
to 75. 6 percent.

However , while the number of transplants rose, the demand
for transplants increased even faster (see chart). During
the 1980-1985 period , the number of people awaiting kidney
                     pati.nts R.c.ivin.                             idn.v Transplants

                         and Pati.nts 
                       &itin Transplants
                                                      '80 -             '85
   10. 000 r                                                                                             waitin
                                                                                                   Pati.nts
                                                                                                 Transplan\s
     8000                                                                                      P&ti.nts R.c.ivin
       OOO
                                                                                                              Transpl an ts
     4000
     20001980         19E!            1'62              198                    1984         1985
 transplants across the country jumped from 5,
 an increase of 93 percent.

                                                            072 to 9, 791
 In this kind of situation , where the demand is greater than

 the currently available supply, access to that supply

 becomes a key 
 atte of public policy. This report
- addresses     that access issue         i th respect to foreign
 nationals. It looks first at the phenomenon of nonresident

 81 iens coming to the U. S. to receive transplants. It then
 turns to the practice of exporting cadaver kidneys from the

   s. to other countries. Finally, it closes with three
 recommendations concerning Federal policy.


          FOREIGN NATIONALS RECEIVING TRANSPLANTS IN THE U.
      :IDE
 For more tha            a decade , foreign nationals have been coming

 to the U. s. to reoei ve a kidney transplant. At first , most

 would come 
                 a living related donor. But   as the success
 wi th cadaver organ transplants increased, the proportion of
 foreign nationals receiving such organs              rose.
                                                Currently, it
 seems that at least 90 percent of the transplants performed
 on foreign natio~als in this country involve a kidney
 removed fro          a cadaver.

 Those who have travelec to the U. S. for a kidney transplant
 have usually done so to gain access to a more skilled tech­
 nology than is available in their own country. But a numbe
 of other propelling factors have also been
 have included religious and/or cultural principles that
                                                        involved.
                                                        These
 restrict the use of cadave orga s in their own country.
 They have also included active solicitation by a few U.
 transplant centers seeLing to supplement their domestic
 activi ty. Over the years the individuals who have received
 transplaDts in the U. s. have co e from countries all over
 the world , with the significant concentrations recently from

 Saudi Arabia and Greece.

 For many years , this practice attracted little attention.
 However , as the demand for transplants began to increase, it
 became increasingly visible and controversial. In November
 1983 , the House Subcommittee on Investigations and Oversight
  of the Committee on Science and Technology gave maj
. attention to the transplantation of nonresident aliens as
  part of a broader set of hearings on organ procurement and
 allocation.   Subsequently, the media began to focus on the
. issue and heig tenej public awareness.
    ost pro inent in this regard was the Pulitzer Prize winning
 series of reports put ishe6 by 
 The Pi ttsburoh Press , first
 in    ay 1985 and then in November           1985.
                                            These covered a wide
                        y. 



range of issues 
 among which were the exporting of U.
cadaver kidneys overseas and the transplanting of foreign
nationals in this          country.
                             The latter involved allegations
of weal thy foreign patients being given preference for
transplants at the major transplant center in Pittsburgh.
There is no clear indication of the incidence of kidney
transplants performed in the U. S. on foreign nationals or of
the impact of the widespread publicity on the level of such
transplants.          The Health Care Financing Administration
 (HCFA) of the U. S. Department of Health and Human Services

certified transplant cente        s.
(HHS) does collect annual data from all 178 Medicare
                                        This data distinguishes
transplants on Medicare recipients from those on
non-Medicare recipients , but it does not break down the
   atter categc           In aedi tion to transplants paid by or on
        alf 0= fo      gn nationals , the non-Medicare category ca
include transplants fo individuals covered by the Veterans
       inistration edicaid , and private insurers. (A 1981
amendment calls for 
        :edicare to serve as a secondary payer
for all transpl ants performed duri g the first year of a

Program. ) 

beneficiary s coverage under the End Stage Renal Disease

Given the lacK of data and the heightened congressional
interest in the matter of transplants for foreign nationals
both HCFA and the Ame ican Society of Transplant Surgeons
(ASTS) conducted surveys of transplant centers in      1983.
                                                          The
HCFA data , based on (often incomplete) responses from 137 of
157 centers , identified 122 nonresident aliens receiving
transplants in 1921 , 137 in 1982 , and 79 in the first 6
months of 19 E3 .
The ASTS data , based on responses from 82 centers
ide tified 1 2 nonresident aliens having transplants in
1982. Further , it indicated that 117 (82. 4 percent) of
these individuals had cadaver transplants and that only
eig t centers accounted for 50 percent of these 117
transplant operations.

Because of the incomplete information , this data cannot be
relied upon to provide a full accounting of the incidence of
transplants for nonresident aliens in the early      1980s.
                                                         Yet,
it helps provide the basis for a reasonable estimate if one
takes into account that there were 441 non-Medicare

transplants in 1982 and 496 in 1983 , and that these non-

Medicare totals included relatively few Veterans

      inistration edicaid , or private insurer covered
transr 1        ants.
               Suc an esti ate might be an annual level of
200- 250 cadaver transpl ants. Considering that there were
  681 cadaver transpla ts in the U. S. in 1982 and 4 328 in
1983, this 200-250 estimate results in 5. 4 to 6. 8 percent of
all cadaver transplants in 1982 and 4. 6 to 5. 8 percent in
1963.
Since this survey activity and the November 1983 hearings, a
number of transplant centers on their own initiative have
developed more restrictive policies concerning the
transplanting of foreign          nationals.
                                      Typically, these
involve specifying that u. S. residents will be given
priori ty consideration for cadaver donor transplants.

But, because other centers have become more accommodating to
foreign nationals (usually without any explicitly stated
policies) , it does not necessarily follow that the annual

during the past 2 to 3 yea
increased.
                                    s.
level vf transpla ts for foreign nationals has decreased
                                In fact , it may have

The HCFA data suggest that such an increase is quite
possible (see table below) as the annual level of
non-Medicare transplants in 1984 and 1985 increased to
almost twice that of           1983.
                             Some of this increase is
accounted for by a j u p in the number of non-Medicare
covered transplants for those recorded as having Medicare
applications pending (275 in
1984 and 375 in   19S5). Some is probably also explained by
the implementatio   c: t e secondary payer provision
referenced earlier. But it would still appear that a
substantial number 0: the nearly 1 000 non-Medicare
transplants in 1985 were fer foreign nationals.
KIDKEY TRA SPLA        , BY
      EDlCARE A D NON-MEDICARE COVERAGE
                  (Cale         dar Years 1981-1985)

                                                            MEDICARE
              TOT AL                             NON-       Percentage
Year         Transplants               edicare   Medicare   Of Total
1981           4885                    4421       464        90.
1982           5358                    4917       441        91.
198            6112                    5616       496        91.
1984           6965                    6029       939        86.
1925           7695                    6698       978        87.
Source: Health Care Financing Administration
Taking into account the above noted factors , we estimate
that 300 , or less than one-third of all the non-Medicare
transplants in 1985 , were for foreign nationals receiving a
transplant obtained from a cadaver  donor.    This represents
                                                    that

  2 percent of the 5, 819 cadaver ' donor transplants
 ook place in the U. s. in that year.


Perhaps even more notable is that two recent developments
provide a good basis for assuming that this rate will remain
about the same in the years ahead or may even increase. One
serves to legitimize a rate of transplantation for foreign
nationals at 10 percent per center; the other at 5 percent.

The 10 pe cent maximum comes from the Task Force
on Organ Transplan ation , which was established by the
Katio al Organ Tra
issued its fins 1 rep t.   Act of 1984 and which recently
                              a divided vote, the Task Force
recommended thst transplants for nonresident aliens not
comprise more than 10 perce t of the transplants at any
particular center  (but that non-renal organs should not be
offered for transplantatiQn to such individuals unless no
other sui table recipient can be found). They specified that
this policy should apply until the soon tp be established
national organ procure ent and transplantation network has
had an opportunity to revie the issue.

The 5 percent maxi     comes fro the American Society of
Transplant Surgeo    (AS:S). In  a recently adopted set of
guidelines , the AS S stated that the percent of transplants
for nonresid€ t aliens " must no exceed an average 5 percent
per year of the orga s transplanted at any single center.
Both of those pronouncements were meant to have an
inhibi ting effect on the incidence of transplants for
foreign natio als.   The Task Force , for instance,
established the 10 percent ca with the idea of
reducing the level of foreign national activity at the few
transplant cente s nOvi functioning at a higher than the 10
percent level. But by lending authority and credibility to
a level of 5 or 10 percent, both these entities may, however
inadvertently, be providing a rationale for many centers now
performing below these levels , to become more inclined to
conduct transplants for foreign nationals.
THE DISTRICT OF COLU EIA
As suggested above , the incidence of transplantation for

foreign nationals varies across the  country.  While 7.
percent of all individuals having transplants in the U. S.
1985 ha neither existing nor pending Medicare coverage

the proportion in some states was considerably higher. 

examples, Massachusetts had a rate of 15. 5 percent;

Tennessee - 13. 0 percent; Louisiana - 11 percent and

New York - 11. 3 percent. Illinois  , which had a rate of 12.

percent in 1984 , dropped to 3 percent in 1985. Similarly,
California declined from 18. 7 to 8. 2 percent during the same
period.
In recent years , by far the highest rate of non-Medicare

transplantation has been in the District of Columbia. (Here
and subsequently, in referring to the non-Medicare category,
we are excluding from consideration those individuals who
have had transplants and have Medicare applications
pending.    In 1965 , non-Medicare transplant patients
accounted for 31 percent of all those receiving kidney
transplants within the Distri , up from 24. 6 percent in
1934.  Three 0: the five trcnsplant centers in the District
performed 30 percent or ffore of their transplants on
non-V,e=icare pctien s (see tcble below).

                        TRANSPLA T PATIENTS IN THE
                         DISTRICT OF COLUMBIA , BY
                           TRA SPLANT CENTER
                         TOTAL A D NON-MEDICARE
                          (Calendar Year 1985)


                             Total Transplants
Center              Patie~                   Non-Medicare Patients
                                          Number     As % of Total
                                                       45.


                                                       30.
                103                                    33.
                                                       12.
TOTAL           213                                   31.    (avg.
Source:   Heal th   Care Financing Administration


Our review of t     ree of t
                         e transplant centers in the
District showed that almost two-thirds of the non-Medicare
transplants t t occurre= in these centers involved foreign
    nationals and that nearly all of these transplants involved

    the use of cadaver kidneys. Thus , when considering that

    there were 181 cadaver kidney transplants performed in the

    District in 1985, we find that about 22 percent of those

-   transplants were for the benefit of foreign nationals.
    Clearly, the nation s diplomatic center is also a center for
    foreign nationals receiving kidney transplants.
    At the same time , the District of Columbia has a higher

    incidence of dialysis than any state in the nation. This is
    reflected by the fact that in 1982 , the District' s Medicare

    End stage Renal Disease (ESRD) program incidence rate was

    228 per million population. This compared with a rate of

    108 for New Jersey, the highest of any state, and of 87

    for the country as a whole.

       s mea s that kidneys that 
  ould otherwise be available
    for District residents aViai ting a transplant are being

    offered to foreign nationals.


    Similarly, some members of the military and their families
    are also denied the opportunity to receive a transplant
    because of the access obtained by foreig nationals. A
    major military hospital located in the District performs
    transplants for  U. S. military personnel and their dependents
    from allover the worle.     As of July 1986, it had a waiting
    list of 56 and was not accepting any new entrants because of
    the limi tee supply of cadaver kidneys.
    In perspective it
    proportio
                          is
                           iw.p rtant to recog ize that while the
                of foreign nationals receiving transplants in the
    District is high , so is the overall level of transplant
    activi ty compared to that 0: the States.    In 1985, patients
    who had a tra splant accounted for 25 percent of the total
    dialysis popul tion in the District , compared with a
    national average of 9. 1 percent. This means that when the
    non-Medicare cases are excluded , the District still has an
    above average rate of transpl ants.   But it does not follow
    that District residents are benefitting sufficiently from
    these transplants inasmuch as two of the five centers
    are major , high volume centers attracting many patients from
    surrounding States.
    IMPLICATIONS
     any professionals in the transplant fj eld express
    considerable unease with as heavy an orientation to foreign
    nationals as exists in the District of Columbia. It - is that
    kind of unease that underlies the limits proposed by the
    Task Force ar.d the ASIS.
 However , many of these professionals also feel that a lesser
 level of activity, at the 5 to 10 percent level , is not
 detrimental ,   and   , in fact, is beneficial. Physicians
  associated with transplant programs are particularly likely
 to hold this view.            It is well reflected in the following
. procureme t.
  comments made at the 
         ovember 1983 hearings on organ

                         The first is by Dr. Peter Ivanovich , a
  nephrologist at the Chicago Veterans Administration
  Lakeside Medical Ce ter; the second by Dr. Nicholas J.
  Feduska , a transplant surgeon at the University of
  California , San Francisco:
             We believe that medicine , like music, should
            recognize no cultural or national barriers.
            We ca providE a service which , in turn
            allo s institutions in this country to profit
            fro expErie cE gained from a select group of
            patients , some with conditions physicians do
            not normally e counter. In addition , the fees
            that they help pay de ray the costs normally
            borne by those hospitals and third party
            payers. "
                 ost physicia s and surgeons take the view
            that medicine         . sho :d not be considered
            in nationalistic terms , that    it is a human­
            istic disci line , and that their services and
            skills should be 
    ade available to all citizens
            of the world.      As long as this is not a problem
            of substantial magni tude , it might best be left
            alone. "
 The call for an international , humanistic approach presents

 an attractive and important ideal. However , like any ideal

 it must be exa ined in ter s of associated realities and

 practical effects. In the present environment , where the

 u. S. demand for cadaver kidneys exceeds the supply, the
 application of this ideal involves some realities and
 effects that clearly undermine its      value. At
                                                least seven of
 them deserve serious consideration.
      Foreion nationals , on averaae, are more quickly
      serviced    We did not find or hear of any transplant
      center that gives priority to foreign nationals.
      However , many, and probably most, do not have an
      explici t policy of granting preference to U. S"
      residents. It is   widely noted that among such centers
      foreig nationals cn a waiting list tend to receive a
transplant more quickly than the U. S. residents. The
major reason for this is that fewer of them are likely
to be highly sensi tized (which means that their chances
of receiving an acceptable kidney are
the November 1983 hearings , Dr. 

                                             higher).
                                                  During
                                   immy Light, Director
of Organ Procurement and Transplantation at the

Washington Hospital Center , explained this reality as

follows:
          They (foreign nationals) are a more favorable
        group to find a kidney for , in the sense that
        almost all of them are first transplants. Few
        of them are sensitized so that the cross matches
        are generally negative and you can accept, if you
        ..:ill , a lesser match.
During t    e sa   e hearing, Dr.   Light also noted that at
The Washington Hospi tel Center , at that time , the mean
wai ting tiffE for foreign nationals was 16 weeks
compared with 41 weeks for Medicare recipients.
both cases , the waiting time was slightly greater for
those with 0 blood type     , and
                               slightly less for those
wi th   A blood type.
For U. S. . residents , the number of cadaver kidneys
available is reduced and the average waiting time is
increased. Some    rofessiona1s counter this point by
noting that many or most of the kidneys going to

foreign nationals would otherwise be discarded. But
wi th close to 10 000 people awaiting kidney transplan­
tation in the U.   , it is difficult to understand why
nearly all c the 300 or so cadaver kidneys being
transplantec into foreign nationals could not be
provided to U. S. residents -- that is , unless a
transpl ant center is disinclined to share kidneys with
other centers in its region or in the nation.
National orca~ sharinc is discouraced    As we will

address in a subsequent report, the extent to which
kidneys are being shared on a national basis has been
decreasing during the past 2        years.
                                      Primarily this is
because of the introduction of cyclosporine and its
association with improved outcomes , even in a patient
wi th a poorly matched donor kidney. But the
aveilabi1i ty o foreign nationals on a waiting list
clearly provides a further disincentive to       sharing. It
provides a center with a greater opportunity to use a
kidney rather than to send it to another center.
                    ) .





This reality was directly addressed during the November
1983 hearings by Dr. John McDonald, chief transplant
surgeon at the Louisiana State University Medical
Center and then president of the South-Eastern Organ
Procureme t Foundation (SEOPF).
In explaining the justification for his own center

policy of not accepting foreign nationals, he commented

as follov.'
       We are personally fearful that if we had
      nonresident aliens on our own list that we would
      use organs locally that we would otherwise have
      shared wi th othe institutions and thereby in a
      secondary way deny kidneys to American citizens.
Medicare costs are increased    Over time , transplan­
tation not only affords the recipients the likelihood
of a healthier and more independent life , but also
provides the 
 edicare progra with the opportunity to
save money. This is because transplantation , over time
costs less than .   dialysis.
                            Just how much less cannot be
definitively determined. However , on the basis of HCFA
data on dialysis costs and a recent Rand Corporation
study on the cost effects of kidney transplantation , we
estimate that for each transplant performed on a
Medicare beneficiary in 1985 there was an average cost
savings of $52 000 over a 5- year period. For 1987, we
estimate that this savings will increase to $75 000
(see Appendix I I
I f we assume the. t 275 of the estimated 300 cadaver
donor transplants performed on foreign nationals in
1985 were instead performed on Medicare recipients
then , on the basis of the above estimate , Medicare
could have saved abo       $17 million over 5 years. The
opportuni ty for additional savings would , of course
apply for each subsequent year.

Orcran donation is jeopardized   Organ donation in the
u. s. rests on a fragile        foundation. People
                                             donate
organs with the assumption that the system for
distributing the           will be a fair one.
                                        When they learn
that foreign nationals receive organs instead of u.
residents and that they generally do so in a shorter
period of time , they begin to question the fairness of
that system and may very well become less inclined to
donate. Indeed , in some communi ties where there has
been much publici ty about foreign nationals receiving
transplanted kidneys , there has been a subsequent
reduction in d n e. ti on evels.



                                 .i ­
                           , ,




The Task Force, in supporting its recommendation that

would allow up to 10 percent of the transplants to be

performed on foreign nationals, stated that public

concern about foreign nationals receiving cadaver

kidneys is directed to policies that reflect

 favoritism and injustice           . not against sharing
wi th non-immigrant aliens per se. II Yet such a
distinction is not readily   drawn. (Is it
inj ustice , for instance , that foreign nationals are
likely to spend less time on the waiting list?)
Further , when the media and the public address issues
of organ shortage, questions are bound to be raised
about the fairness of sharing scarce organs with
foreign nationals and about the equity of the
processes that cetermine who among the thousands of
 otentially interested foreign nationals are actually
given access to U. S. cadaver kidneys.
Post-transpl ant care is compromised   Transplant
surgeons stress that post-transplant patient care
management is a crucial determinant of outcomes.
This involves decisions about which immunosuppressive
medications to use , in what combinations , and for how
lon  a time. It   also involves careful observation for
early signs of possible graft failure.
Such oversi ht is especially critical during the first
few months after the transplant, but is important for
as long as the transpl ant 1     asts. It
                                      is generally
agreed that foreign nationals , who presumably return
to their countries soon after the transplant, have less
access to ski lied medical oversight than would U. s.
residents.  This means that their risk of complica­
tions and/or graft failure are      greater. It
                                             also means
that the use of a scarce societal resource may be
squanderec.
Valuable outcome data is lost    In the same context

u. S. transplant surgeons lose the opportunity to
collect outcome data and to gain critical feedback on
the efficacy of particular interventions over     time.
varying extents, foreign nationals, then , represent a
lost data base. In a dynamic field such as
transplantation , where careful analysis of patient
outcome data is intricately linked with continued
improvement , the loss of such a data base, even for
only 5 to 10 percent of the universe , is a serious
matter.
        EXPORTING CADAVER KIDNEYS TO OTHER COUNTRIES


Some foreign nationals are able to obtain a kidney from a
cadaver donor in the u. S. without even having to travel to
this country.    In these instances, U. S. transplant centers,
independent organ procurement agencies (IOPAs), or the
South-Eastern Organ Procurement Foundation (SEOPF )--the
nation ' s largest organ sharing program, send the kidneys
other countries for transplantation   there. In   recent years,
these exports appear to be primarily to England and Japan.

Over the years, SEOPF has been the greatest single exporter

of kidneys , as it would regularly send overseas kidneys that

could not be placed among  its   member institutions. But
significant nu bers have also been exported by individual
transpla t ce ters and IO? , which , like SEOPF , have
developed w=rking re:          ips with foreign surgeons
interested in U. s. cadaver kidneys.

Typically, the exported kidneys have been older ones. They
have been removed from brain-dead donors for 40 or more
hours and still have not been matched with an appropriate
u. S.recipient.  u. S. transpl ant surgeons have been
disinclined to use kid eys onCE they reach this age, but

   y foreign surgeons have been qui te eage to receive and
transplant such kidneys. Accordingly, exportation has
often been viewed as a way to see that a kidney that would
otherwise be discarded is , in fact, used.
As with the phenomenon of foreign nationals coming to the

  s. to receive a transplant , the practice of exporting
kidneys became increasingly visible and controversial as
the U.s.  deffa d for kidneys began to intensify. The media
in heightening public awareness of   it.
gave increasing attention to the issue and were instrumental
                                          They raised
difficul t questions concerning why, in a time of
insufficient   supply, kidneys were being sent overseas
especially in view of reports that the outcomes being
achieved with these older , exported kidneys were comparable
to those of kidneys transplanted in the U.  S.  They also
raised hard questions concerning (1) which individuals were
receiving transplants with the exported kidneys, (2) the
extent to which u. S. procurement costs were being
reimbursed, and (3) the comparatively high kidney wastage
rates in the u.

In recent years , the annual cost reports prepared by

.transplant centers , IOPAs a d SEOPF have included a count on

kidneys sent to other countries. Al though these figures are
incomplete and include so e double counting, and in some

cases, may even be inaccurate , they provide a general

indication of the incidence of kidney exportation.


The peak level of activity appears to have been around
1983.  At that time , when the U. S. rate of discarded kidneys
tended to be more than 20 percent , it appeared that at least
350 and perhaps as many as 400 or more cadaver kidneys were
being sent out of the country.
In subsequent years, the number has almost certainly
decreased. On the basis of our discussions and review of
the cost report data , we estimate that 300-350 kidneys were
exported in 198 and 200-250 in      1985.
                                        During this period,
the annual number of exported kidneys reported by IOPAs
declinED fro 229 to 111 , by SEOPF - from 89 to 63.
Why the decline? The increased u. s. demand and the
heightened p blici ty were certainly contributing factors.
  , teo , were t e improvej outcomes associated with the use
of cyclosporine and the greater readiness of some U.
surgeons to transplant older kidneys. These factors have
also contributed to a significant reduction in U. S. kidney
wastage rates , to a leVEl thct now seems about 10-12
percent.
IMPLICATIO?\S
The 200-250 cadaver kidneys that we estimate were exported
in 1985 account for 3. 4 - 4. 3 percent of all cadaver
transplants that occurred in the U. s. that year. If these
kidneys were net exported , some , given their advanced age
would certainly have been    wasted. But with effective
systems for pooling and sharing cadaver kidneys, it is quite
feasible to assume that the great majority of these kidneys
   ld be used for transpl antatio     in the U.

Thus   hile the exporting of U. S. cadaver kidneys does
provide a valuable opportunity to some foreign nationals and
does foster the international , humanistic ideal referenced
earlier, it generates some of the same kind of effects that
were also explained. Four such effects are of particular
note.
        For U. S. residents the number of cadaver kidneys
        available is reduced     In this case , the " opportunity
        loss " is probably somewhat less than applies to
        cadaver kid eys transplanted into foreign natio als in

        the U. S. , s nce the overall incidence seems to be

     somewhat              less.
                     But nonetheless there is a loss that
     would appear to be difficult to justify in an

     environment where there is a shortage of cadaver

     kidneys.
     This is exactly the line of thinking expressed by a

     Bri tish transplant surgeon who has often transplanted

     u. S. cadaver kidneys into private- pay patients. In                              its
     November 1985 series on kidney transplantation, 
                           The
     Pi ttsburgh Press                        quoted him as follows:
                 I feel very sorry for the patients who are

                wai ting in the United
                absolutely crazy that a country the size of

                                                              States. It seems
                the States , with whatever length of waiting

                   st you ha , co :d ever offer any kidneys

                      ay. It
                           does ' t make sense. If these
                kidneys are so bad , why don t your surgeons
                just give the away rather than sell them to
                us? Isn t that a bit like selling a car
                wi thout an engir.e?"
2.    ational oroan sharino is discouraged . Here , again
     the eagerness of fore gn nationals to receive u.
     cadaver kidneys can serve as a disincentive to organ
     sharing wi thin the U.     When a transplant center
     cannot readily find an appropriate recipient for a
                                                         S.
     cadaver kidne , i    can merely package it in ice and
     send it of f to a fore ign institution or surgeon.
     contrast , the alternative of striving to find an
     appro riate p: ace                          er.t in t
                                  e U. S. can be more complex
     and time-consu ing.

     Medicare costs are increased    This cost effect is
     twofold. First  , for each transplant opportunity lost
     to a 
 edicare recipient on a transplant waiting list
     the progra in 1925 was deprived of an estimated cost
     savings of $6: 000 over 5 years. Thus, if 200 of the
     cadaver kidneys sent overseas in 1985 had instead been
     transplanted into Medicare recipients , the ' program
     could have saved about S12 million over the next 5
     years.
     Secondly, it is important to recognize that in cases
     where kidneys are exported , HCFA' s policy has been to
     reimburse all eligible procurement costs, excluding
     transportation overseas , if such costs are not paid for
     by the foreign receiving center. It appears that in
     the great maj ori ty of the cases , those costs have not
     been paid for ty the foreign center. I f we were to
     assume that 150 of the kidneys exported in 1985 were

     not paid for by the foreign center and that the

     average procurement cost was about $9 000 per kidney

     (including kidneys procured by hospitals and by IOPAs)

     then the loss to Medicare for that year would be $1.

     million.
     Organ donation is jeopardized     The flow of U.
     cadaver kidneys to foreign nationals poses a subtle
     but continuing danger to the foundation of trust and
     goodwill that supports organ   donation.   This is no
     less so when foreign nationals receive kidneys in
     another country than when they come here to obtain
     them. Moreover , as incidents of this kind are
     publicized in particular com i ttees , or , indeed , across
     the natic , the effects can be long-lasting, injecting
     in ma y a sense of dc bt or even cynicism concerning
     the eq ity and reliability of America s system for
     sharing organs.

                       RECOMMENDATIONS

      view of the implications discussed in the previous pages
we offer two categories of recommendations. One concerns
the transplanting of foreign nationals in the U. S. The
other     oncerns the exporting of U. S. cadaver kidneys.
     HCFA should undertake efforts to help ensure that

     cadaver kidnevs ore not cffered to foreiqn nationals

     unless it has bee determined that no suitable U. s.

     recipient car. be found
Determining the extent to which foreign nationals should
have access to kidneys donated in the U. S.
societal , not a medical decision. Physiciansis we met
wi th tended to agree with this position and to welcome
specific governmental direction on the   matter.
recommendation offered above would provide such
                                                  The
direction.
It is a practical , straightforward recommendation that could
be carried out administratively. It is , in essence, the
same recommendation that the Task Force has advocated with
respect to hearts and other non-renal    organs.Since both
renal and non-renal organs are in short supply in the U. s. ,
we don t see why non-U. S. residents should be given greater
access to kidneys than to other types of organs.
Further , our recommendation is in line with the position of
the National Kidney Foundation and of eight members of the
Task Force who filed a strongly stated dissent to the
maj ori ty          ' s recommendation that as many as 10 percent of the
transplants at a center could be for foreign nationals.
agree with the Task Force minority that " members of
the giving community (both American citizens and aliens
living in the United States) have a right to expect that
their medical needs 
            ill be met and that patient
selection decisions will not be made to their detri­
ment. " A policy based on the above recommendation would
help protect this right. It would recognize the reality
that there is a shortage of cadaver kidneys and that,
through the development of effective systems for
sharing, just about all cadaver kidneys that become
available can be used by U. s. residents.

Such a policy would be consistent with that established
by many other countries, including the United Kingdom.
the sa e tiDe , i t w8 ld not be a renouncement of the
international , humanistic ideal addressed earlier. It would
leave the door ope~ for foreign nationals to receive living
related kidney transpl ants in the U. S. when they have a
consenting donor and to receive cadaver transplants when an
appropriate U. S. recipient cannot be        found.
                                               Over time , if
the U. S. shortage of cadaver kidneys were to be reduced , the
opportuni ty for foreign nationals to receive such kidneys
would be enhanced.


Further ,    professionals in the transplant field in the
U. S. can and should co tinue to work with their col­
leagues in other countries , sharing information and
technology. This   kind of interaction , which can benefit
the u. s. as well as other countries, would not be
const-:ained.
Finally from a cost perspective , if the proposed policy

were enacted in 1987 , the Medicare savings generated

during that calendar yecr above would be an estimated

622. 5 million over a 5- year period (see Appendix II.
      HCFA should undertaKe efforts to help ensure that
      kidneys are not eXDorted to other countries unless it
      has been deter ined that no suitable U. S. recipient can
      be found. Further , when kidneys are sent to other
      countries, HCFA should prohibit Medicare reimbursement
      for any of the aC isi tion costs of those kidneys
The first part of     tr.is
                         recommendation is in accord with
a policy change being considered in HCFA. We support this
change , but fee 1 that in i tsel f it is insufficient.
When a kidney is exported out of the country, we feel it
is essential that the receiving center pay the full
acquisi tion cost for that kidney--just as is already the
case for a foreign national who receives a transplant in
the U.S.   Under present policy, which precludes
reimbursement only for the costs of overseas shipment,
Medicare is , in effect , subsidizing the cost of exported
kidneys.
Enactment of the recommendation , as stated above, would

generate in 1987 an estimated Medicare cost savings of $15

million over a 5 year period (see Appendix II).

Thus , if both our recommendations were carried out , an
estimated 500 addi tional
                        U. s. residents would be able to
receive a cadaver kidney transplant during         1987.
                                                  That
represe  ts a     estiIT   tec 5- year Y.edicare cost   savings
of S37. 5 mi    licIn addition there would be considerable
savings in the Social Security disability program , as many
of those who would otherwise receive disability payments
would be able to lead healthier , more independent lives.




In accord with the study findings and recommendations , the
Administrator of ths Heal th Care Financing Administration
(HCF ) agreed to do the following:

     require organ procurment agencies and certified

     transplant centers to maintain a record of placement

     efforts fcr each kidney they export or furnish to a

     foreign national , which will document efforts to place

     the kidney with domestic transplant patients;


     amend its reimbursement rules to ensure that organ

     procurement agencies and certified transplant centers

     are reimbursed only for kidneys furnished to Medicare

     beneficiaries;
     work with the Public Health Service to encourage the

     American Society of Transplant Surgeons to reassess the

     40 hour standard for viability of cadaver kidneys in

     light of the success of other countries in transplan­

     ting kidneys that have cold ischaemic times in excess

     of 50 hours; and

review standards governing certification of independent
OPAs and considering whether they should be
strengthened in any way, including extending them to
hospi tal-based OPAs.
                                           , '





                           APPENDIX I

                   BACKGROU D A D METHODOLOGY


Over the past few years , the subj ect of organ acquisition
'has become an increasingly important and controversial one.
 Newspaper reports , television news shows , radio talk shows,
 Congressional hearings , and other sources have been raisng
. hard questions about the adequacy of current systems for
obtaining and distributing cadaver organs and tissues that
will be used for transplantation.
Because of these questions and the Medicare program

significant stake in the condition of the country s organ

acquisi tion systems , the Office of Inspector General has

undertaken a broadly based study of these systems.    Its
overriding purpose is to promote a better understanding of
them in terms of their effectiveness , efficiency and equity,
and to ideDtify policy directions that might be taken to
prc ote these ends.
The study, which was initiated in January 1986 , has involved

three maj or modes of inquiry:


     Reviews of literature and data bases including journal
     articles, books , governmental reports and statistical
     compilations of public and private organizations.
     Particular attention has been devoted to the review and
     analysis of 1984-85 cost reports submitted by HHS
     certifiec independent organ procurement agencies and by
     Medicare certified transplant centers, and to the
     review of documents and reports generated by the Organ
     Transplantation Task Force established by the National
     Organ Transplcn Act of 1984.
     Visi ts to 17 cities, focusing on reviews of the organ
     acquisi tioD practices in those cities. These involved
     discu sions   ith transplant surgeons and coordinators
     nephrologists , immunologists, procurement agenc
     directors , fiscal analysts , ESRD network directors and
     others associated with organ acquisition and

     transplantation.   The cities visited were: San
     Francisco; Los Angeles; Denver; Chicago; Minneapolis;
     Memphis; Nashville; Houston , Dallas; San Antonio;
     Miami , FL; Richmond and Charlottesville , VA;
     Philadelphia; New York; Boston; and Washington , D.
     Telephone discussions and selected visits with various

     indi viduals knowledgeable about organ acquisition
     practices and  issues.  These included representatives
         of organizations , such as the South-Eastern Organ

         Procurement Foundation , and the American Council on

         Transplantation; many of the members of the task force;

         academics; and various officials in the Department of

         Heal th and Human Services , most especially in the

         Public Health Service and the Health Care Financing

            inistratio:l; and others.


This report is the first of a series of reports that will

present the findings and recommendations of the study.

Forthcoming reports will address: (1) the extent to which

dialysis patients are being informed of transplantation as

an optional treatment; (2) the efficiency and economy of

kidney acquisition systems; (3) the dynamics of organ supply

and demand; and (4) the effectiveness of organ procurement

and distribution syste  , with particular attention to the

extent and nature of orga sharing, both wi thin regions and
across the country.
In each of these reports primary attention will be given to
kidney acquisition. This is because there has been much
more experience and acti vi ty
                             concerning renal than non-renal
organs. Congress  has extended Medicare coverage on a near
universal basis to those req iring dialysis and

transplantation since     1972.
                             During that time more than
50, 000 kidney transpl ants have been performed in the U.
the majority of which have involved the use of cadaver
 s. ,
kidneys.
In the years ahea , howeve , transplantation of non-renal

organs ,            especially hearts and livers , will become especiall
prominent given the continued advances in technology and the
fact that Medicare no cove s liver transplants for Medicare
eligible children with biliary atresia and will be covering

heart transplants for
                                   edicare eligible individuals meeting

specified medical    criteria.           This prospect for accelerated
growth is suggested by the fact that the number of both

heart and liver transplants doubled between 1984 and 1985

from 346 to 719 in the case of hearts and from 308 to 602
wi th respect to livers. In that period
                                                    , the number of
kidney transplants performed in the U. S. rose from 6,
  965.                                                         968 to
Thus, the problems encountered and lessons learned

concerning kidney acquisition have broader relevance to

organ acquisition generally. There are some distinguishing

characteristics between non- renal and renal acquisition (not

the least of which is that non-renal organs must be made

available for transplantation much more quickly). But

there are also important commonalities , among which is the

fact that the same organizations typically handle renal and

 on-renal acquisition. Accordingly, the findings and
recommendations of .this study, although focused on kidneys,
have significance for organ acquisition in general.
               " .                 ~~~ " ( 





                                   APPENDIX II

                          METHODOLOGY FOR MEDICARE COST

                                SAVI!\GS ESTIMATES
The methodology involves two maj or components. The
concerns the proj ected
                                                           first
                         average 5- year Medicare cost for each
transpl ant of a 
 ecicare beneficiary. The second concerns
the proj ected average 5- year Medicare cost for each Medicare
beneficiary on dialysis. The Medicare savings is the
difference between the two components. Further , we
distinguished between savings estimates for 1985 from those
projected for        1987.
                       This is because the rapidly changing
developments in the field of transplantation call for some

different assumptions for those two periods.


First of all         wi    th re
                             ct to the methodology for projecting
average costs associ atec wi th    transplantation over a 5- year
period , we drew on t e work of Jerome Aroesty and Richard
Rettig, authors of a 1984 Rand Corporation report , based on
research funded in part by the National Institutes of
Heal th , and entitled    The Cost Effects of Improved Kidney
Transplantatio         In that report, the authors make different
cost projections (all based on 1979 dollars) based on
differing assumptions about Government policy and l- year
kipney graft survival rates.
For 1985 , we used the authors first policy scenario , which
assumes the follo\.;.:ns:    I) Current government policy
prevails , which limits ESRD benefits to 3 years for
successful tra spl a t recipients and restricts coverage of
immunosuppresive drugs tc inpatient treatment; and (2)
treatment costs remain unchanged for all three levels of
outcome     In addi tion , we used the medium level of outcome,
which is a 1 year graft survival rate of 74 percent.

On the basis  of    se assumptions an9 their analysis of the
cost components of trans;:antation over time , Aroesty and
Rettig proj ect average 5- year costs of S58 , 000.
For 1987 , we used the authors ' second policy scenario , which
assumes that there will be no change in Governent policy
concerning coverage but that " new transplantation costs
decline 25 percent fro baseline costs , a magnitude
consistent with results from trials reported by Pittsburgh
and Minnesota     The continued advances in the types of
medication available and in the use of irnumsuppressive
dru s generally are leading in many transplant centers to
 significant reductions in the length of inpatient hospital

 stays for transplantation and in the incidence of post

 transplant hospitalization.
. In addition , because of continued improvements in 1 year

. graft survival rates , we used an outcome level halfway

. between the medium outcome level (74 percent) and the high

  level (89 percent).


 On the basis of these assumptions, Aroesty and Rettig r s
 methodology leads to proj ected average 5- year transplant

 costs of $45,   000.

 Secondly, with respect to the methodology for projecting the
 costs of dialysis, we draw on HCFA cost data and on analyses
 of th s data by Dr. Henry Krakauer , a HCFA official who,
 over the years , has studied kidney transplant outcomes and
 costs in depth.   His reviews indicate that 1 year
 maintenance costs for dialysis patients range between
 $25 500 to $27 900 , depending on the age of the patient.
 Recognizing that some of these are costs for Medicare
 covered services that would apply for eligible Medicare
 beneficiaries , even if they were no longer covered under the
 ESRD program , we conservatively estimate the annual cost of
 dialysis to be $2 , 000.

 Thus , fer 1985 , we estimate that each transplant of a
 Medicare beneficiary will generate a 5- year cost savings of
 $62 000.   This represents $120, 000 for the 5- year cost of
 dialysis  ($2 , 000 x 5) minus the 5- year projected
 transplant cost of $58 , DOC.
 For 1987 , we esti ate that each transplant of a Medicare
 beneficiary will generate a 5- year cost savings of $75, 000.
 This represer.ts S 20, 000 for the 5- year cost of dialysis
 minus the 5- year projected transplant cost of $45, 000.
